                                    SOCIAL SECURITY
MEMORANDUM
Date:   December 17, 2003                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Management Advisory Report – The Social Security Administration’s Procedures for
        Enumerating Foreign Students (A-05-03-23056)


        The attached final Management Advisory Report presents the results of our review. Our
        objective was to evaluate the Social Security Administration’s (SSA) policies and
        procedures for enumerating foreign students. As part of this work, we also reviewed the
        policies and practices of educational institutions, the Department of Homeland Security
        and the Department of State since they impact on the integrity of SSA’s process for
        enumerating foreign students.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                       James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       THE SOCIAL SECURITY
   ADMINISTRATION’S PROCEDURES
        FOR ENUMERATING
        FOREIGN STUDENTS

   December 2003   A-05-03-23056



  MANAGEMENT
ADVISORY REPORT
                                      Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           Executive Summary
OBJECTIVE
Our objective was to evaluate the Social Security Administration’s (SSA) policies and
procedures for enumerating foreign students. As part of this work, we also reviewed the
relevant policies and practices of educational institutions, the Department of Homeland
Security (DHS) and the Department of State since they impact on the integrity of SSA’s
process for enumerating foreign students.

BACKGROUND

Over 500,000 foreign students enrolled at educational institutions in the United States
during the 2001-2002 academic year. Given the large number of foreign students who
enroll in schools each year, we believe SSA must employ effective controls in its
assignment of Social Security numbers (SSN). In this report, we discuss controls over
assigning SSNs to foreign students.

RESULTS OF REVIEW

SSA has initiated actions to improve controls over the process of enumerating foreign
students. At the same time, DHS has implemented the Student and Exchange Visitor
Information System (SEVIS) to provide a means of monitoring students’ status. As
SEVIS is developed into a database for all foreign students, SSA has an opportunity to
work with DHS in developing SEVIS into a reliable control system to ensure students
are enrolled and enumerated students are working. SSA should also consider
enhancements to its own systems to provide SSN and other pertinent data for its own
use and use by other Government agencies as permissible by law. Its systems should
provide computerized identification of enumerated foreign students. We visited schools
that were providing work authorization letters which were used to enumerate foreign
students, but the schools did not document an offer of actual employment. The integrity
of the enumeration process would be strengthened if SSA required schools to verify
actual employment before issuing letters to students authorizing that they receive SSNs.

CONCLUSION AND RECOMMENDATIONS
Since the events of September 11, 2001, SSA has improved its controls over SSNs and
coordinated with other agencies to improve controls over the assignment of SSNs to
noncitizens. We believe SSA’s use of SEVIS should provide the Agency with more
accurate and current information about a student’s status than is currently available.
SSA needs to continue its coordination with DHS to further enhance SEVIS. SSA also
needs to ensure it requires sufficient documentation from foreign students before
providing them with SSNs. In addition, SSA should consider enhancements to its own
process which can also potentially assist other agencies involved with foreign students
with their missions.



SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                         i
AGENCY COMMENTS
SSA generally agreed with our comments and has taken a number of actions to address
our concerns. The Agency disagreed with what it believed to be the underlying premise
for recommending enhancements to its Modernized Enumeration System (MES).
Subsequent discussions disclosed concerns about using scarce resources and potential
legal issues in developing and sharing data with DHS for monitoring foreign students.

OIG RESPONSE
We revised the report in response to SSA’s concerns to clarify that MES is a potentially
useful data source for information on foreign students. We encourage the Agency to
capture additional information relevant to its program responsibilities. See the text after
“Conclusions and Recommendations” in this report for a more detailed discussion of
SSA’s comments and our response. The full text of SSA’s comments is included in
Appendix E.




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                         ii
                                                                Table of Contents
                                                                                                                    Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 4

Determining a Student’s Authorization to Work............................................................... 5

•   Work Authorization Letters from Schools................................................................... 5

•   FO Procedures for Foreign Students ......................................................................... 5

•   SSA Efforts to Improve Controls over the Enumeration Process ............................... 6

New Federal Monitoring of Foreign Students ................................................................. 7

Continued Monitoring of Foreign Students ...................................................................... 9

CONCLUSIONS AND RECOMMENDATIONS............................................................. 11

APPENDICES

Appendix A – Background on Foreign Students and Classification Requirements

Appendix B – Educational Institutions Visited

Appendix C – Prior Office of the Inspector General Reports

Appendix D – Enumeration Process

Appendix E – Agency Comments

Appendix F – OIG Contacts and Staff Acknowledgments




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)
                                                                     Acronyms
Act                  Immigration and Nationality Act

ASVI                 Alien Status Verification Index

BCIS                 Bureau of Citizenship and Immigration Services

CFR                  Code of Federal Regulations

DHS                  Department of Homeland Security

DSO                  Designated School Official

EOIR                 Executive Office for Immigration Review

FO                   Field Office

Form DS-2019         Certificate of Eligibility for Exchange Visitor (J-1) Status

Form I-9             Employment Eligibility Verification

Form I-20            Certificate of Eligibility for Nonimmigrant (F-1) Student Status

Form I-94            Arrival-Departure Record

Form SS-5            Application for a Social Security Card

IIE                  Institute of International Education

INS                  Immigration and Naturalization Service

MES                  Modernized Enumeration System

POMS                 Program Operations Manual System

SAVE                 Systematic Alien Verification for Entitlements

SEVIS                Student and Exchange Visitor Information System

SSA                  Social Security Administration

SSN                  Social Security Number

State                Department of State

USC                  University of Southern California


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)
                                                                            Introduction
OBJECTIVE
Our objective was to evaluate the Social Security Administration’s (SSA) policies and
procedures for enumerating foreign students. As part of this work, we also reviewed the
relevant policies and practices of educational institutions, the Department of Homeland
Security’s (DHS) Bureau of Citizenship and Immigration Services (BCIS) (formerly part
of the Immigration and Naturalization Service), and the Department of State (State)
since they impact on the integrity of SSA’s process for enumerating foreign students.

BACKGROUND

Given the heightened threat of terrorism today, failure to protect the Social Security
number’s (SSN) integrity can have enormous consequences for our Nation and its
citizens. Now more than ever, SSA must be particularly cautious in striking a balance
between serving the public and SSN integrity. We recognize that increased security
measures will impact the time necessary to process SSN applications. However, given
the large number of foreign students who enroll in educational institutions in this country
each year, we believe SSA must employ effective front-end controls in its enumeration
process.1 In this report, we discuss controls over the enumeration of foreign students.

Over 500,000 foreign students enrolled at educational institutions in the United States
during the 2001-2002 academic year. Students coming to the United States to pursue
full-time academic or vocational studies are admitted under three nonimmigrant
classifications: (1) the F-1, which includes academic students in colleges, universities,
seminaries, conservatories, academic high schools, other academic institutions and
language training; (2) the M-1, which relates only to vocational students; and (3) the J-1,
which covers exchange visitors.2 In Appendix A, we provide more information on these
visa categories. These three categories account for approximately 1 million of the 32.8
million nonimmigrants admitted to the United States during 2001, or about 3 percent of
the total nonimmigrants admitted. Foreign students attending an educational institution
in the United States would normally be admitted to the country based on a F-1 or J-1
visa.

Students with the F-1 classification have the authority to work on-campus when they
meet certain criteria. BCIS requires the school to ensure the F-1 student is attending
school full-time and is in good academic standing. In terms of work requirements, F-1
students may be employed on-campus at the institution where they are enrolled.3 In
1
    SSA refers to the process of assigning SSNs as “enumeration.”
2
    Immigration and Nationality Act § 101(a)(15)(F), (J), and (M); 8 U.S.C. § 1101(a)(15)(F), (J), and (M).
3
 Foreign students with the F-1 classification can work on-campus without additional approval from DHS.
A student may also be allowed to work off-campus under limited circumstances. For example, an


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                                             1
determining whether to assign a SSN, SSA field office (FO) personnel determine the
eligibility for enumeration of the F-1 foreign students by third-party documentation from
the school or the on-campus employer.4 For example, a foreign student may present a
letter from his/her advisor stating the student is authorized to work on-campus.
Students with the J-1 classification are required to provide SSA with Form DS-2019,
Certificate of Eligibility for Exchange Visitor (J-1) Status, indicating their status as an
exchange visitor in the United States and an employment letter from their sponsor
authorizing them to work.5

SCOPE AND METHODOLOGY

We visited 15 educational institutions and 15 FOs to learn more about the foreign
student enumeration process. See Appendix B for a listing of the schools visited and
number of foreign students enrolled. We met with SSA staff to learn about ongoing
initiatives with DHS and State that may impact on the enumeration of foreign students.
To accomplish our objective, we performed the following:

•    Used the Institute of International Education’s (IIE) listing of “Leading Institutions for
     International Students 2002” to select schools for our review. We believe this
     database offered a comprehensive collection of foreign student statistics. We did
     not independently verify the validity of the data within this database, but we did
     perform some comparisons of IIE data with other available data and concluded the
     information was reliable for the purposes of this review.

•    Reviewed SSA policies and procedures for enumerating foreign students.

•    Interviewed SSA FO personnel responsible for enumerating foreign students.

•    Interviewed educational institution officials responsible for issuing I-20 forms
     (Certificate of Eligibility for Nonimmigrant (F-1) Student Status) and providing work
     authorization letters to foreign students.

•    Reviewed BCIS and State regulations, policies and procedures for foreign students.




F-1 foreign student must be in F-1 status for at least 1 full academic year and receive Designated School
Official (DSO) certification, among other things, before working off-campus. See 8 Code of Federal
Regulations (C.F.R.) § 214.2(f)(9)(ii)(D).
4
    SSA’s Program Operations Manual System (POMS) § RM 00203.470.C.1.a.
5
  SSA’s POMS § RM 00203.480.C.1.a and SSA Policy Instruction EM-02103, September 4, 2002 (noting
the replacement of Form IAP-66 with Form DS-2019).


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                                       2
Our review was performed during the period November 2002 through October 2003, in
Chicago, Illinois, and the 15 university locations in Appendix B. The review was done in
accordance with Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency. The SSA entity reviewed was the Office of the Deputy
Commissioner for Operations.




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                      3
                                                Results of Review
In prior Office of the Inspector General reports, we highlighted the vulnerabilities in
SSA’s enumeration process.6 Based on the results of this review, we are concerned
about SSA’s risk of exposure to improper enumeration of foreign students. We are also
concerned that the enumeration system should be capable of more readily recalling the
data used to enumerate foreign students. Our review disclosed that SSA does not have
a reliable system of control for determining whether a student is enrolled at an
educational institution and requires a SSN to perform authorized work. SSA’s POMS
requires FOs to determine the credibility of documentation from the school or employee
authorizing on-campus employment.7 We identified instances in which schools provided
work authorization letters to students for on-campus employment without an offer of
employment. Normally, this authorization is given in the form of a letter from the DSO
stating that the student is authorized to work and enrolled in a full-time course of study.
Although current SSA procedures and regulations permit enumeration based on work
authorization,8 the integrity of the SSN could be further strengthened by requiring actual
employment for F-1 students.

Moreover, most of the educational institutions included in our interviews did not monitor
the off-campus work status of their foreign students, and a new tracking system
developed by DHS is not expected to assist with such monitoring. Currently, there are
no regulations that require the schools to monitor off-campus employment. BCIS
regulations require the F-1 student to request a recommendation from the DSO for
off-campus employment due to severe economic hardship.9 The DSO at a school not
approved for the Student and Exchange Visitor Information System (SEVIS) must make
the certification on Form I-538, Certification by Designated School Official, and other
DSOs must complete such certification in SEVIS.10 SSA offices should be following
SSA instructions when foreign students (F-1, M-1, and J-1 classification) apply for a
SSN. The students should have in their possession SEVIS Forms I-20 or DS-2019.
However, schools reportedly have encountered difficulties in using SEVIS, resulting in
delayed implementation. Nevertheless, SSA policy requires a SEVIS generated
certificate to assign a SSN.




6
    See Appendix C.
7
    SSA’s POMS § RM 00203.470.C.1.a.
8
    20 C.F.R. §§ 422.104 and 422.105.
9
    8 C.F.R. § 214.2(f)(9)(ii).
10
     Ibid.


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                        4
DETERMINING A STUDENT’S AUTHORIZATION TO WORK
Since the events of September 11, 2001 and in response to the problem of identity
fraud, SSA has changed its enumeration process to verify immigration documentation,
including the F-1 and J-1 classification student, prior to assigning a SSN. POMS states
that the DSO is responsible for the authorization to work. For evidence prior to
enumeration, SSA relies on letters from the DSO authorizing the student to work, pay
stubs showing the school as the employer, letters from the employer verifying the
student’s employment, and letters from the DSO stating that the student will receive a
scholarship in exchange for teaching services, along with certification that the student is
enrolled in a full-time course of study. However, SSA is not required to verify a student
is enrolled at a school and employed. Nonetheless, SSA continues to improve controls
over the enumeration process and is proposing changes to its enumeration policies to
require additional documentation from the schools.

WORK AUTHORIZATION LETTERS FROM SCHOOLS

Our interviews with representatives from 15 educational institutions, altogether enrolling
approximately 62,000 foreign students, disclosed that most schools did not require an
offer of employment prior to issuing a work authorization letter. Only 4 of the 15 schools
(27 percent) stated that employment or an offer of employment was required to receive
a letter of employment from the school. The remaining 11 schools provided
employment letters to all students based on eligibility for employment. For example, at
one university, the SSA Form SS-5, Application for a Social Security Card, was
provided to each freshman during orientation. Thus, it appeared that enumeration was
part of the normal registration process at this school.

One of the 11 schools not requiring an offer of employment, the University of Southern
California (USC), recently revised its policy based on recommendations from the local
FO. Under its new policy, USC requires that the student have a job offer prior to issuing
a work authorization letter to SSA. Until August 21, 2002, a form letter was used for
enumeration purposes stating the student was attending the school on a full-time basis
and may accept employment at the institution without prior approval from BCIS. While
this information was correct, the FO took the position it was insufficient to assign a SSN.

FO PROCEDURES FOR FOREIGN STUDENTS

Our interviews with SSA personnel in 15 FOs that service the schools selected for
review documented the process for enumerating foreign students since July 2002, when
new procedures were implemented to improve the enumeration process (see
Appendix D). While each of the 15 FOs listed the same documentation for enumerating




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                         5
foreign students,11 we noticed variances in the requirements for employment letters
from the schools. Furthermore, we believe that the work authorization and related work
status of F-1 students are the most difficult requirements to substantiate. The
J-1 students have work authorization directly on their Form DS-2019. On the other
hand, the F-1 students receive a letter from the DSO stating that they are full-time
students and authorized to work.12

A student admitted to the United States based on an F-1 visa and attending school on a
full-time basis may accept employment at the institution without specific approval from
BCIS.13 Current SSA procedures merely allow F-1 students to be enumerated based on
an authorization-to-work from the school.14 However, staff in 8 of the 15 FOs stated, in
their opinion, that enumeration should take place only as needed (that is, actual
employment). Furthermore, staff in 10 FOs stated that procedures should be clarified
and specific guidelines developed. Some FO staff stated that consistent requirements
would also prevent students from shopping for a SSN. We believe SSA should propose
the regulatory requirement that evidence of actual employment be necessary for foreign
students to receive a SSN to reduce this vulnerability in the enumeration process.

SSA EFFORTS TO IMPROVE CONTROLS OVER THE ENUMERATION PROCESS

SSA has taken a number of steps to improve controls over the enumeration process for
noncitizens, including foreign students. Most of these efforts were initiated by or were
at least partially attributable to the Agency’s Enumeration Response Team15 that was
established after September 11, 2001. Besides the collateral verification of immigration
documentation already discussed, the following efforts are underway:

•     proposing a new regulation which would require additional work authorization
      documentation from schools prior to enumerating foreign students;




11
  For example, each FO was verifying the immigration documents using a DHS program called the
Systematic Alien Verification for Entitlements (SAVE). If the verifying information is not available on
SAVE, the FO must manually verify the documentation with DHS, a process that can take from a few
days to many weeks. If it is determined that the documentation is valid, and the student’s status warrants
assigning a SSN, this information is entered into SSA’s primary SSN database, the Modernized
Enumeration System (MES).
12
     SSA’s POMS § RM 00203.470.C.1.a and b.
13
     8 C.F.R. § 214.2(f)(9)(i).
14
     SSA’s POMS § RM 00203.470.C.1.a.
15
     The Team was formerly called the “Enumeration Task Force.”



SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                                        6
•    eliminating driver’s licenses as a reason for nonwork SSNs which would eliminate
     one requirement for foreign students to obtain a SSN;16

•    implementing an Enumeration at Entry program, a joint effort with State and DHS to
     integrate the SSN application process which could include F-1 students;

•    issuing a special numbers series of SSNs to noncitizens enumerated via
     Enumeration at Entry, which may eventually include F-1 students; and

•    developing an inventory of educational institutions that are approved to offer work
     authorizations to students.

Each of these initiatives is in process and will impact on foreign student enumeration.
For example, SSA has proposed a new regulation that will require additional
documentation for a SSN assigned for work purposes. Under this proposal, F-1
students would be required to provide documentation from two sources before SSA
assigns or verifies a SSN for the student. The student would provide documentation
from the school that he or she has been authorized to engage in employment. SSA
would not assign a SSN for the student unless the student provides a Form I-20 and
confirmation from the designated school official of the nature of the employment and the
identification of the employer. The employer documentation would indicate either that
the employer made a commitment to hire the student or that the student’s employment
actually began. The documentation from the employer would also need to identify the
employer and provide the student’s employment start date.

The above efforts along with SSA’s cooperative efforts with the educational institutions
have the potential to improve the enumeration process related to noncitizens and, by
extension, foreign students. Continued efforts in this area will restrict the assignment of
SSNs and provide the FOs with improved documentation to ensure the integrity of the
enumeration process.

NEW FEDERAL MONITORING OF FOREIGN STUDENTS

Successful implementation of a new DHS foreign student monitoring program could
help improve the integrity of SSA’s enumeration of foreign students. SEVIS was
developed to maintain accurate and current information on nonimmigrant students
(F and M classification), exchange visitors (J classification), and their dependents.
SEVIS enables schools and sponsors to transmit electronic information and event
notifications to DHS and State throughout a student’s or exchange visitor’s stay in the


16
   Because of a December 2002 lawsuit, SSA has returned to its previous policy of allowing the issuance
of SSN to obtain driver's licenses. (Iyengar v. Barnhart, Civ. No. 02-0825, 2002 U.S. Dist. LEXIS 22668
[Nov. 26, 2002]). SSA crafted new regulations regarding the use of nonwork SSNs and forwarded them
to the Office of Management and Budget for review and approval. These regulations were approved on
October 27, 2003. SSA intends to share the new regulations with the States and eliminate the issuance
of SSNs to obtain a driver's license.


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                                     7
United States. SEVIS will also provide systems alerts, event notifications, and basic
reports to the end-user schools, programs, and Federal agencies.17

Once this information is available on SAVE, SSA should be able to use this data to
verify a student’s entry into the United States and school enrollment status. SSA
verifies noncitizen documentation with BCIS using the SAVE system. Foreign student
information relative to the enumeration process could be captured from the SEVIS
system and transmitted to the SAVE system. However, SEVIS is not currently designed
to monitor a student’s work activity. Close cooperation with DHS on the implementation
of SEVIS would allow SSA to collaborate on future enhancements that could include
new data elements such as work authorizing and monitoring changes in work status.

Under SEVIS, each school will be required to input foreign student data and update
those records via the website or in a batch mode for large institutions. SEVIS was
planned to be in place for all students by January 30, 2003. However, the deadline was
extended to February 15, 2003 for new students and August 1, 2003 for those students
enrolled already at the schools. The House Committee on Science recently asked the
General Accounting Office to gather data on the visa problem based, in part, on the
results of a March 26, 2003 hearing. The hearing focused on issues related to foreign
students and scholars in science, mathematics, and engineering, particularly graduate
students. Academic leaders expressed concern about the backlog of student visas and
problems with tracking foreign students. The Committee was told that SEVIS has been
plagued with technological problems to include lost information, delays in processing
forms, and personal information being missent.

School officials we interviewed stated that their schools are prepared to meet the new
DHS requirements under SEVIS. However, the interviews reflect common concerns
from the schools that the approval process for SEVIS is inadequate, access to multiple
users overloads SEVIS, and DHS has not implemented batch processing. Five of the
schools were still waiting for SEVIS approval or authorization. Another five schools
were waiting for DHS to implement batch processing. These schools require batch
processing because of the large numbers of foreign students enrolled. Only 2 of the
15 schools were successful with SEVIS input for the August and September 2002
enrollees. This is further evidence that SSA needs to work closely with DHS on
modifications to the system to enhance its capabilities and facilitate the enumeration
process.




17
   SEVIS is designed to notify schools when the foreign student has arrived in the United States and also
invalidate extraneous Forms I-20. The foreign student must arrive and register at the school within
30 days of the registration deadline. If the foreign student does not register within this period, the school
is expected to report this in SEVIS so that DHS enforcement offices can be notified. Furthermore, SEVIS
requires the schools to report the status of the students (full-time or part-time) and any subsequent
changes in the status. The students are responsible for notifying the school of their address and the
school reports to DHS. Federal law enforcement and intelligence community have access to SEVIS data.


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                                          8
CONTINUED MONITORING OF FOREIGN STUDENTS

While officials at 9 of the 15 educational institutions we visited said they performed
some form of monitoring of on-campus employment, none of the schools monitor
students’ off-campus work activity. When we mentioned this to SSA, an official told us
that F-1 students are not likely to work off-campus without DHS authorization since the
SSN card has a label that reads “VALID FOR WORK ONLY WITH INS
DOCUMENTATION.” Each employer is responsible for the completion of the BCIS
Form I-9, Employment Eligibility Verification. BCIS instructions state the employer must
review documentation presented by the job applicant establishing both identity and work
authorization. BCIS provides a list of acceptable documents that includes the Social
Security card. The employer must examine the documents, record document
information on the form, and certify the process on the form. The aforementioned label
is intended to alert employers to ask for BCIS documentation when the individual uses
the card for employment purposes. As a result, employers hiring a foreign student
would need to see this work authorization as part of the hiring process, which includes
completion of a BCIS Form I-9.18

Nonetheless, as we noted in an earlier audit,19 almost 600,000 noncitizens appear to be
working without authorization under a nonwork SSN annually. For example, in
Tax Year 2000, SSA reported to Immigration and Naturalization Service that earnings
were reported for 599,097 nonwork SSNs. Implementation of such a reporting system
may also be appropriate for foreign students working without the required authorization.
We continue to maintain that relying on the employer as a control is insufficient to
prevent unauthorized employment.

Under SSA’s current noncitizen enumeration process, procedures require FO staff to
record information related to the immigration documents they review, such as the
admission number on the I-94, Arrival-Departure Record, the type of visa presented,
and the SAVE verification number.20 However, this information is recorded in a
“remarks” section rather than being recorded in the Modernized Enumeration System
(MES) as separate data elements. A more detailed classification of this data would
allow SSA to:

•     computerize the data received from each foreign student during the enumeration
      process to ensure that adequate documentation is received prior to issuing a SSN
      and to facilitate access to this information as needed by SSA;

18
   Presently, up to 29 documents issued by various Federal, State, and local awarding agencies are valid
for completing the Form I-9. The variety of acceptable identification may discourage employers from
verifying these documents. Acceptable records include (1) DHS identity and work authorization
documents; (2) U.S. passports; (3) SSN cards; (4) State and local Government records; and (5) records
from schools, medical facilities, and the military.
19
 Congressional Response Report: Social Security Administration Benefits Related to Unauthorized
Work (A-03-03-23053), March 2003.
20
     SSA Policy Instruction EM-02086, July 12, 2002.


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                                      9
•    link earnings data for individuals by the nonimmigrant classification;

•    integrate earnings data with MES to identify questionable earnings, such as
     excessive amounts or notable changes in earnings that can be traced to the foreign
     student classification; and

•    maintain a better system for managing information on the (1) documentation
     reviewed by SSA employees prior to assigning a SSN, (2) time frames when work is
     authorized, and (3) characteristics of noncitizens being enumerated, such as their
     classification.

A more comprehensive classification and analysis of noncitizen data would assist
management in monitoring the enumeration process. SSA could focus on high-risk
situations that require additional verification steps to be taken.21




21
   The lack of such management information limited our ability during this review to determine the number
of foreign students already enumerated by SSA and the characteristics of these students.


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                                     10
                                               Conclusions and
                                              Recommendations
Since the events of September 11, 2001, SSA has improved its controls over SSNs and
coordinated with other agencies to improve controls over the enumeration of
noncitizens. We believe the introduction of SEVIS into the enumeration process and
SSA access should provide the Agency with more accurate and current information
about a student’s status than is currently available. Although this new system is unlikely
to assist SSA with its verification of a student’s employment status in the near future,
continued coordination with DHS should lead to further enhancements. In the interim,
SSA needs to ensure it requires sufficient documentation from foreign students before
providing them with SSNs. In addition, since SSA may have information in its
possession that can assist other agencies with their mission, the Agency should
consider enhancements to its own process.

We recommend SSA:

1. Evaluate and revise the current system to improve the retention and accessibility of
   data used in the enumeration process. Specifically, the MES record should provide
   unique data fields (for example, I-94 number and visa type) to facilitate
   computerized access and use of the information accumulated during the
   enumeration of foreign students.

2. Continue to work closely with DHS to enhance SEVIS and transmit key data to the
   SAVE system to assist SSA in its documentation and verification of data used to
   enumerate foreign students.

3. Continue to work closely with educational institutions to ensure they understand
   SSA policies and procedures established to reduce the risks of improperly
   enumerating foreign students.

4. Propose the regulatory requirement that evidence of actual employment be
   necessary for foreign students to receive a SSN. Implement new guidelines for
   improving evidence requirements, such as a letter from the actual department
   employing the student. We believe this document should include, at a minimum, a
   position description, start date, and the number of hours the student is expected to
   work.




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                       11
AGENCY COMMENTS

SSA generally concurred with our recommendations. A number of actions have been
taken that address much of what this report recommends. However, regarding
Recommendation 1, the Agency disagreed, in principle, with what it believes to be the
underlying premise of the recommendation – the need for SSA to collect additional data
on foreign students beyond its program responsibilities. Subsequent discussions with
Agency personnel disclosed concerns about using its scarce resources to carry out a
mission that SSA neither has the responsibility nor the funding to fulfill. The Agency
also raised potential legal concerns in sharing such data with DHS. SSA added that the
monitoring of student activities was a DHS responsibility and SEVIS was established for
that purpose. Nonetheless, the Agency agreed to continue considering the inclusion of
additional data elements in MES based on its program needs. The full text of SSA’s
comments is included in Appendix E.

OIG RESPONSE

To emphasize our desire to have SSA capture student data that is useful to SSA’s
programs, we revised the report to clarify that MES is a potentially useful data source
for information on foreign students. Although SSA disagreed with the basis of
Recommendation 1, we believe the Agency’s efforts to add data elements into MES
demonstrate its agreement with the intent of our recommendation. We believe that
adding elements to MES would allow the Agency to capture additional student data that
would benefit SSA programs. We also encourage SSA to consider the potential
development of such data during its ongoing discussions regarding data sharing with
DHS, as well as other Federal agencies. As part of implementation of Recommendation
1, Agency counsel should be consulted to determine the legality of obtaining additional
information from foreign students during SSA’s enumeration process. Further, counsel
should also be consulted to determine the legal parameters and limitations that will
govern any sharing of information with other Federal agencies. We are providing a
copy of this report to the Inspector General, DHS, as a possible catalyst for such
discussions.




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                    12
                                          Appendices




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)
                                                                                  Appendix A

Background on Foreign Students and Classification
Requirements
In the sections below, we provide additional information on (1) the number of foreign
students entering the United States and their country of origin and (2) a description of
the various classifications used by foreign students entering the United States.

Country of Origin
The top 10 countries of origin for foreign students represent 305,095 of the
547,867 foreign students (56 percent) in the United States during the 2000/2001 school
year. See the table below for more information on these 10 countries.

                     Top 10 Countries of Origin for Foreign Students
                             Studying in the United States

            Country                  2000/2001 School Year               Percent of Top 10 Total
 China                                       59,939                               19.6
 India                                       54,664                               17.9
 Japan                                       46,497                               15.2
 Republic of Korea                           45,685                               15.0
 Taiwan                                      28,566                                 9.4
 Canada                                      25,279                                 8.3
 Indonesia                                   11,625                                 3.8
 Thailand                                    11,187                                 3.7
 Turkey                                      10,983                                 3.6
 Mexico                                      10,670                                 3.5
           Total                            305,095                              100.0
Source: Institute of International Education website http://www.iie.org, Open Doors 2001 Report on
International Education Exchange, International Student Totals by Leading Place of Origin.

Classification Descriptions

Students who are coming to the United States to pursue full-time academic or
vocational studies are admitted in one of two nonimmigrant classifications: (1) the
F-1 category, which includes academic students in colleges, universities, seminaries,
conservatories, academic high schools, other academic institutions and language
training and (2) the M-1 category, which relates to vocational students. The
J-1 category for Exchange Aliens (or Exchange Visitors) can also be used by foreign
students. See the following figure for the distribution of visas issued to foreign students
since the 1976/1977 school year.



SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                                    A-1
    Foreign Students Attending United States’ Schools by Classification (1976-2001)



              Number of Foreign   600,000

                                  500,000

                                  400,000
                 Students



                                  300,000

                                  200,000

                                  100,000

                                       0
                                   19 7

                                   19 9

                                   19 1

                                   19 3

                                   19 5

                                   19 7

                                   19 9

                                   19 1

                                   19 3

                                   19 5

                                   19 7

                                   20 9

                                          1
                                        /7

                                        /7

                                        /8

                                        /8

                                        /8

                                        /8

                                        /8

                                        /9

                                        /9

                                        /9

                                        /9

                                        /9

                                        /0
                                     76

                                     78

                                     80

                                     82

                                     84

                                     86

                                     88

                                     90

                                     92

                                     94

                                     96

                                     98

                                     00
                                   19




                                                           School Year


                                            F-1   J-1   Refugee   Other

Source: U.S. Citizenship and Immigration Services website: http://uscis.gov, Table 37, Nonimmigrants
Admitted by Class of Admission Selected Fiscal Years.

Academic Students (F-1) and Vocational Students (M-1) Requirements
The Immigration and Nationality Act (Act), provides two nonimmigrant classifications for
persons wishing to study in the United States.1 The "F" classification is reserved for
nonimmigrants wishing to pursue academic studies and/or language training programs.
The "M" classification is reserved for nonimmigrants wishing to pursue nonacademic or
vocational studies. Foreign students seeking to study in the United States may be
admitted under the F-1 or M-1 category provided they meet the following criteria.

•     The student must be enrolled in an academic educational program, a
      language-training program, or a vocational program.

•     The school must be approved by Department of Homeland Security.

•     The student must be enrolled as a full-time student at the institution.

•     The student must be proficient in English or be enrolled in courses leading to English
      proficiency.

•     The student must have sufficient funds available for self-support during the entire
      proposed course of study.

1
    8 U.S.C. § 1101(a)(15)(F)(i) and (M)(i).


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                                  A-2
•     The student must maintain a residence abroad which he or she has no intention of
      giving up.

Exchange Visitors (J-1) Classification
The Act (Section 214.2(j)) also provides a nonimmigrant classification for persons to
participate in exchange visitor programs in the United States which at times is used by
foreign students.2 The "J" classification is for educational and cultural exchange
programs designated by the Department of State, Bureau of Consular Affairs.

The "J" exchange visitor program is designed to promote the interchange of persons,
knowledge, and skills in the fields of education, arts, and sciences. Participants include:

•     students at all academic levels;

•     trainees obtaining on-the-job training with firms, institutions, and agencies;

•     teachers of primary, secondary, and specialized schools;

•     professors coming to teach or do research at institutions of higher learning;

•     research scholars;

•     professional trainees in the medical and allied fields; and

•     international visitors coming for the purpose of traveling, observing, consulting,
      conducting research, training, sharing, demonstrating specialized knowledge or
      skills, or participating in organized people-to-people programs.




2
    8 U.S.C. § 1001(a)(15)(J).


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                          A-3
                                                                                 Appendix B

Educational Institutions Visited
We visited 15 educational institutions that enrolled 61,760 foreign students. The table
below shows the names and locations of these universities, as well as their total student
and foreign student enrollments. Also shown is the nationwide ranking for each
institution based on numbers of foreign students.

                            Schools Visited (2000/2001 School Year)

                                                                   Foreign        Total       Percent
Rank             School                     Location               Students     Students      Foreign


  1     New York University       New York, New York                 5,399        37,149       14.5%
        University of Southern
  2     California                Los Angeles, California            5,321        28,766        18.5

  3     Columbia University       New York, New York                 4,837        22,425        21.6

  4     Purdue University         West Lafayette, Indiana            4,469        37,762        11.8

  5     Boston University         Boston, Massachusetts              4,443        28,325        15.7
        University of Texas at
  6     Austin                    Austin, Texas                      4,320        49,009         8.8

  7     Ohio State University     Columbus, Ohio                     4,035        47,952         8.4
        University of Michigan
  8     – Ann Arbor               Ann Arbor, Michigan                4,004        38,103        10.5

  9     University of Wisconsin   Madison, Wisconsin                 3,938        41,050         9.6

 11     University of Illinois    Champaign, Illinois                3,798        36,936        10.3
        Florida International
 12     University                Miami, Florida                     3,603        32,196        11.2

 13     Texas A&M University      College Station, Texas             3,587        44,026         8.1
        University of
 14     Pennsylvania              Philadelphia, Pennsylvania         3,487        17,854        19.5

 15     University of Maryland    College Park, Maryland             3,480        33,189        10.5

 23     University of Florida     Gainesville, Florida               3,039        45,133         6.7

                  Total                                                61,760      539,875       11.4
Source: Institute of International Education website: http://www.iie.org, Open Doors 2001 Report on
International Education, Where They Study 2000/01.




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)
                                                                      Appendix C

Prior Office of the Inspector General Reports
       Office of the Inspector General Reports Related to Integrity
                       of the Social Security Number
    Common
  Identification                                                     Date Report
     Number                         Report Title                       Issued
 A-08-02-12056      The Social Security Administration               August 2002
                    Continues Assigning Original Social
                    Security Numbers to Foreign-Born
                    Individuals Who Present Invalid Evidentiary
                    Documents
 A-03-02-22078      Congressional Response Report:                    June 2002
                    Noncitizen Enumeration at the Social
                    Security Administration's Rochester,
                    Minnesota Field Office
 A-08-02-22077      Social Security Number Integrity: An              May 2002
                    Important Link in Homeland Security
 A-08-98-41009      Procedures for Verifying Evidentiary            September 2000
                    Documents Submitted with Original Social
                    Security Number Applications




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)
                                                                        Appendix D

Enumeration Process
In Fiscal Year 2002, the Social Security Administration (SSA) issued over 18 million
original and replacement Social Security number (SSN) cards. Approximately
1.5 million of the original SSNs were assigned to noncitizens. When SSA assigns a
SSN or issues a Social Security card, it independently verifies the authenticity of the
United States birth records for applicants age one and over, immigration records, and
other identification documents the applicant presented to ensure the integrity of the
process.

How SSA Assigns Original SSNs

When an individual applies for an original SSN, he or she must first complete, sign and
submit a Form SS-5, Application for a Social Security Card, to a SSA field office (FO).
SSA requires the applicant to provide acceptable documentary evidence of (1) age,
(2) identity, and (3) U.S. citizenship or lawful alien status. Upon submission, the FO
employee enters applicant information and a description of the evidence presented into
the Modernized Enumeration System (MES).

If, after reviewing the application and supporting evidentiary documentation and
independently verifying the documents with the issuing Agency, the FO employee
believes the documents and information are valid, he or she certifies the application for
overnight validation. Once entered and certified in MES, the SSN application
undergoes automated edits. For example, SSA’s programs compare the applicant's
name and date of birth with existing SSN records to ensure the Agency has not
previously assigned a SSN to the individual. If the application passes all of these edits,
MES issues a SSN card.

Evidentiary Documents Submitted

Evidence of Age: To verify a United States citizen’s age, SSA requests a birth
certificate issued by State or local vital statistics agencies. The United States birth
certificate needs to be established before the applicant reached 5 years of age.
Common examples of documents used to establish a noncitizen's age are a foreign
birth certificate, passport, or Department of Homeland Security (DHS) record.

Evidence of Identity: An identity document submitted as evidence must be recently
issued and provide information so FO personnel can compare its contents with
Form SS-5 data and/or with the applicant's physical appearance. Acceptable identity
documents are drivers’ licenses, passports, school identification cards, marriage or
divorce certificates, or military records. For foreign-born applicants, SSA accepts as
evidence of identity a DHS document submitted as evidence of age only if the applicant



SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                         D-1
has no other document of probative value for identity and is a refugee, parolee, or
asylum applicant.

Evidence of Work Authorized or Lawful Alien Status: Applicants who allege a
foreign place of birth and/or who are not U.S. citizens must submit evidence supporting
either lawful alien status and/or the BCIS-granted work authorization. The Bureau of
Citizenship and Immigration Services (BCIS) issues numerous documents that indicate
the status and class of aliens. For example, the Form I-551, Permanent Resident Card,
establishes the alien as lawfully admitted for permanent residence, which is evidence of
work authorization.

An example of DHS documents issued to support the lawful alien status for a F-1
student are the Form I-94, Arrival/Departure Record. Also, DHS issues documents
acceptable as evidence of employment authorization. Some examples of documents
that establish work authorization for non-immigrants are the Form I-94 that has the
alien's classification displayed; the "employment authorization" is shown on a Form I-94
for a refugee; the Designated School Official (DSO) annotation on the Form I-20 for
certain F-1 students; or the DHS Employment Authorization Document.

Verification of Evidentiary Documentation with DHS

SSA has a number of electronic and paper interfaces with DHS to verify evidentiary
documents provided during the application process. The use of a particular DHS
process relates to whether an individual is seeking asylum or other nonimmigrant
category, or is a refugee, permanent resident alien or parolee. SSA's policies and
procedures require that FO staff verify noncitizen evidentiary documentation through
visual inspection, including use of a black light where appropriate, and/or with DHS
through online or manual verification. Verification of evidentiary documentation with
DHS is mandated in all noncitizen cases.1

Below are definitions of the primary verification interfaces.

Systematic Alien Verification for Entitlements (SAVE): The SAVE program provides
a method of document verification within an automated environment. The Alien Status
Verification Index (ASVI) database, included as part of SAVE, contains certain
biographic information and current status on over 25 million aliens. Each FO must
verify immigration documents submitted via the ASVI system. With this database, FO
staff can enter an alien's registration number or admission number and determine
whether the information alleged by the applicant is valid. If ASVI cannot verify the
document, a manual verification is required using the additional processes described
below.




1
    SSA Policy Instruction EM-02091, August 2, 2002.


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                       D-2
Executive Office for Immigration Review (EOIR): This represents a EOIR,
Department of Justice, case. EOIR provides a status telephone line that SSA’s FO
personnel can use to determine whether an applicant for a SSN has been granted
asylum or there is an appeal pending on the particular case. As of April 2001, DHS
considers aliens granted asylum to have permanent employment authorization and
requests that SSA treat them as permanent resident aliens for enumeration purposes.

Direct DHS Verification: A Form G-845, Document Verification Request, is part of the
manual verification process required by SAVE. This method is used to validate alien
documentation after primary verification, when appropriate, or in those situations when
verification through SAVE is not applicable. Procedures instruct DHS to check other
data sources and respond to SSA within 20 days of receipt.




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                   D-3
                                                                    Appendix E

Agency Comments




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)
                                        SOCIAL SECURITY
MEMORANDUM                                                                          32249-24-960


Date:     September 10, 2003                                                  Refer To: S1J-3

To:       James G. Huse, Jr.
          Inspector General

From:     Larry Dye /s/
          Chief of Staff

Subject   Office of the Inspector General Draft Report, “Controls Over Supplemental Security
          Income Replacement Checks” (A-05-03-13010)--INFORMATION


          We appreciate OIG's efforts in conducting this review. Our comments on the
          recommendations are attached.

          Please let us know if we can be of further assistance. Staff questions can be referred to
          Janet Carbonara at extension 53568.

          Attachment:
          SSA Response




          SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT “THE SOCIAL SECURITY
ADMINISTRATION’S PROCEDURES FOR ENUMERATING FOREIGN
STUDENTS” (AUDIT NO. A-05-03-23056)


Thank you for the opportunity to comment on the draft report. We are pleased that OIG
found that we have improved our controls over Social Security numbers (SSN) and
coordinated with other agencies to improve controls over the enumeration of noncitizens
since the events of September 11, 2001. We are pursuing a regulatory change to further
tighten the requirements for issuing SSNs to F-1 students. We believe that
implementation of the regulation will address much of what the report recommends.

We have made it a priority to work closely with the Department of Homeland Security
(DHS) on enumeration issues as we are sure you have. In fact, one of the Social Security
Administration’s (SSA) nine major goals is improvement of the enumeration process.
However, we have concerns with some sections of the report, especially the several
instances where it implies, or states outright, that it is our job to assist other agencies
in monitoring foreign students or to maintain a computerized tracking of foreign students.
While we have a duty to make sure that only foreign students with legitimate work
authorization are enumerated, we do not agree that we should undertake the monitoring
of foreign students, which is the exclusive responsibility of DHS. Furthermore, while we
agree with the need to include more data from the Student and Exchange Visitor
Information System (SEVIS) in the Systematic Alien Verification for Entitlements
(SAVE) online system, our job is not to supplant the SEVIS with a tracking device of our
own, regardless of documented flaws in the SEVIS system.

Our responses to the specific recommendations are provided below. We are also
providing technical comments to enhance the accuracy of the report.

Recommendation 1

SSA should evaluate and revise the current system to improve the retention and sharing
of data capabilities. Specifically, the Modernized Enumeration System (MES) record
should provide unique data locations to facilitate computerized access and use of
information. For example, the Social Security Administration (SSA) should consider
data improvements, such as placing expiration dates on foreign student SSN cards. Other
improvements include specifying MES data locations to record Form I-20 expiration
dates, Form I-94 numbers, and SAVE verification numbers so this information is readily
available for monitoring the enumeration process. This information could be shared with
DHS if, for example, SSA’s records show questionable earnings.




Response


SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                             E-2
We do not agree. We are concerned that the recommendation implies that we would be
involved in the collection of data not related to enumerating foreign students, the
subsequent sharing of that data, and the responsibilities connected to tracking and
monitoring foreign students. There is also the potential for Privacy Act violations if we
collect data not related to administering our programs and/or disclose the data, such as
earnings information, without the proper legal authority. Even if we captured the
information at the time of application, we cannot assume the data will remain current.

Regarding the items cited as potential improvements (i.e., specifying MES data locations
to record Form I-20 expiration dates, Form I-94 numbers, and SAVE verification
numbers), the I-20 shows the date the student is expected to report to the school and the
date the studies are to be completed. It also adds the period that is the normal length of
study. It does not have an expiration date. Furthermore, F-1 students can change schools
and switch to a different course of study with a new date when studies must be completed.
If we record the date studies are to be completed on the original I-20, that date would
have little or no significance in the long run. With regard to the I-94, the number on that
document is issued to the student when he/she is admitted to the United States (U.S.) and
it is a temporary number. If the student leaves the U.S. to visit his/her home country and
returns, he/she is issued another I-94 with a different I-94 number. Recording the I-94
number would seem to serve no purpose. Although we are considering including
additional data elements in the MES, we have yet to determine what best meets our
program needs. Regarding the last part of the recommendation, to establish a tracking
system to glean information on questionable activities of foreign students to share with
DHS, the DHS has this responsibility and was provided funding to implement the SEVIS.

Recommendation 2

SSA should continue to work closely with DHS to enhance SEVIS and transmit key data
to the SAVE system to assist SSA in its documentation and verification of data used to
enumerate foreign students.

Response

We agree and have asked the DHS/SEVIS staff on several occasions to consider adding
information about foreign student employment to the SEVIS.

Recommendation 3

SSA should continue to work closely with educational institutions to ensure they
understand SSA policies and procedures established to reduce the risks of improperly
enumerating foreign students.




Response



SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                             E-3
We agree. Over the last year, SSA’s Deputy Commissioner had several meetings with
the American Council on Education, and we participated in numerous town hall meetings,
sponsored by the American Council on Education, with educational institutions to explain
the proposed regulatory changes for students and to ensure they understand our policies
and procedures. Additionally, our Field Offices continue to work closely with colleges
and universities to ensure they understand our policies and procedures. We will continue
to provide fact sheets that contain our policy and procedures to the educational
community.

Recommendation 4

SSA should propose the regulatory requirement that evidence of actual employment be
necessary for foreign students to receive a SSN. Implement new guidelines for
improving evidence requirements, such as a letter from the actual department employing
the student. We believe this document should include, at a minimum, a position
description, start date, and the number of hours the student is expected to work.

Response

We agree and have already submitted this regulation to the Office of Management and
Budget.

Technical Comments

Page 4, 1st paragraph, 3rd sentence: "We are also concerned about the enumeration system
being incapable of providing computerized tracking of foreign students." Implied in this
statement is that we have a role in knowing the whereabouts of foreign students which
goes beyond initial enumeration. If the intent is for a more limited knowledge of the
individual's employment history, linking the enumeration and earnings systems would not necessarily
lead to "providing computerized tracking of foreign students." We
recommend this language be changed to: "more readily recalling the data used to
enumerate foreign students."

Page 7, the 3rd bullet should be changed as follows: “issuing a special numbers series of
SSNs to noncitizens enumerated via Enumeration at Entry, which may eventually include
F-1 students.” This change clarifies who gets a special series number.

Pages 9-10, the bullets regarding detailed classification of immigration data in the MES
concern us. As stated previously, tracking foreign students is outside the area of
responsibility of the enumeration process. While we agree that it would better serve us
and DHS if the immigration data collected at enumeration was placed in detailed fields in
MES rather than the remarks section, the report is proposing that additional data be
collected (such as dates of work authorization and other characteristics of the applicant).
These data are not material to enumeration, and would become out of date without

follow-up reporting. Unlike non-work SSNs, the SSNs issued to F-1 students allow work,
thus additional/updated data would be needed to properly report questionable postings.



SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)                              E-4
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

Bill Fernandez, Director, Western Audit Division, (510) 970-1739

Teresa S. Williams, Deputy Director, (312) 353-0331

Acknowledgments
In addition to those named above:

Lela Cartwright, Senior Auditor

Lorrie Clement, Senior Auditor

Bob Lenz, Senior Auditor

Steve Liebman, Senior Auditor

Mike Thomson, Senior Auditor

Kathy Baker, Auditor

Jeffrey Brown, Auditor

Regina Finley, Auditor

Abraham Pierre, Auditor

Mildred Soto, Auditor

Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-05-03-23056.




SSA’s Procedures for Enumerating Foreign Students (A-05-03-23056)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Inspector General, Department of Homeland Security
                   Overview of the Office of the Inspector General


                                           Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.
                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
